NATIONAL CREDIT UNION ADMINISTRATION
   OFFICE OF INSPECTOR GENERAL




          MATERIAL LOSS REVIEW
                   OF
           EASTERN FINANCIAL
          FLORIDA CREDIT UNION

              Report #OIG-10-04
                 May 5, 2010




            PREPARED FOR THE
   NATIONAL CREDIT UNION ADMINISTRATION
       OFFICE OF INSPECTOR GENERAL

          BY CROWE HORWATH LLP
                                 CONTENTS



  Section                                                            Page




EXECUTIVE SUMMARY                                                      1
INTRODUCTION AND BACKGROUND                                            4
OBJECTIVES, SCOPE AND METHODOLOGY                                      6
RESULTS IN DETAIL                                                      8

             Why Eastern Financial Credit Union Failed                 8

             Florida State Supervisory Authority and NCUA
             Supervision of Eastern Financial Florida Credit Union    22

             Findings and Suggestions                                 29

APPENDICES                                                            32

A NCUA Management Comments                                            32

B Acronyms                                                            34




                                                                            i
Material Loss Review of Eastern Financial Florida Credit Union
OIG-10-04



EXECUTIVE SUMMARY

The National Credit Union Administration (NCUA) Office of Inspector General (OIG)
contracted with Crowe Horwath LLP (Crowe) to conduct a Material Loss Review (MLR)
of Eastern Financial Florida Credit Union (Eastern Financial or EFFCU), a federally
insured state-chartered credit union (FISCU). The material loss review objectives were
to (1) determine the cause(s) of EFFCU’s failure and the resulting loss to the National
Credit Union Share Insurance Fund (NCUSIF), and (2) assess supervision of the credit
union. To achieve these objectives, we analyzed NCUA and Florida State Supervisory
Authority (Florida SSA) examination and supervision reports and related
correspondence; interviewed management and staff from NCUA Region III and the
Florida SSA; and reviewed NCUA and Florida SSA guides, policies and procedures,
NCUA Call Reports, and NCUA Financial Performance Reports (FPRs). 1

This report does not make recommendations but provides observations and suggestions.
As major causes, trends, and common characteristics of financial institution failures are
identified in OIG MLR reviews, the OIG will communicate those to management for its
consideration. As resources allow, the OIG may also conduct more in-depth reviews of
specific aspects of the NCUA’s supervision program and make recommendations, as
warranted.

Florida SSA and NCUA examiners determined and we agree that EFFCU’s Board and
management ignored sound risk management principles by:

      •    Exposing the credit union’s net worth to a significant amount of risk due to
           investments in complex Collateralized Debt Obligations (CDOs) without
           management and the Board having sufficient expertise to understand and manage
           the risk of the CDOs.

      •    Implementing a growth strategy that was unsustainable in the current market
           environment.

      •    Not adjusting the Board and management’s ability to handle the growth and
           sophistication of the Credit Union’s activities, including complex CDO investments
           and construction and development (C&D) lending.

      •    Not implementing adequate steps to address the regulatory actions nor address
           the deterioration of the CAMEL ratings.

      •    Operating inefficiently with excessive operating expenses and a reliance on
           contracts for third-party providers.


1
    Section III of Crowe’s report provides further details on the Objectives, Scope, and Methodologies utilized.
                                                                                                                   1
Material Loss Review of Eastern Financial Florida Credit Union
OIG-10-04



Eastern Financial’s management and Board did not practice sound risk management
and created an environment of excessive spending, rapid expansion, increased
concentration risk, and a flawed overall strategic plan that put increasing pressure on
the credit union to produce higher levels of revenue. As EFFCU’s profitability lagged
its asset growth, management and the board approved a leverage strategy to make
significant investments in CDOs funded by short term borrowings without fully
understanding the interest rate and credit risks associated with such complex
investments and exposed EFFCU’s net worth. Management allowed the CDO
investment exposure to represent a significant concentration compared to net worth
over a short period of time and failed to impose practical limits in the complex and risky
investments. Once the investments deteriorated in value, EFFCU management had
no course of action for proper divestiture of the assets, even when the investment
grades fell below permissible levels per Florida statutes.

Eastern Financial suffered substantial losses in the CDO investments during 2007 and
2008 that, coupled with increasing loan losses and other contributing operating factors,
quickly eroded the credit union’s net worth and lead to its insolvency.

Eastern Financial purchased $94.8 million in CDOs from March 2007 to June 2007
funded by short term borrowings, which brought the total investments in CDOs to $149.2
million. Most of these CDOs deteriorated rapidly in value once purchased. Unrealized
losses, eventually recognized through earnings as of September 30, 2007, were $63.4
million. By early 2009, twelve CDOs were completely written off for a $106 million loss
the remaining CDOs had a $43.2 million book value with unrealized losses totaling $37.9
million. In the end, EFFCU essentially charged off all eighteen CDO investments,
resulting in losses of $149.2 million between June 2007 and June 2009, when EFFCU
was merged into Space Coast Credit Union by the NCUA.

Management also allowed numerous regulatory violations in the area of member
business loan (MBL) limits, with C&D loans representing over 40 percent of net worth.
Management failed to properly classify two large loans as C&D loans on quarterly call
reports. The credit union experienced increasing delinquencies and loan losses,
suffering especially large losses on two larger C&D loans. Eastern Financial’s
participation in a Centrix participation program 2 also contributed to overall deteriorating
credit quality and increased loan losses.

Eastern Financial management had allowed several years of rapidly increasing
operating expenses and inefficient operations. During the 3 year period from
June 2004 through June 2007, EFFCU grew its assets by $400 million, for a 25
percent increase during that period. By February 2008, the Chief Executive
Officer had resigned and the Board’s inability to find a suitable replacement left


2
 Centrix Financial, LLP loan participation program where Centrix acted as marketer, underwriter, and servicer for
EFFCU in an indirect automobile loan program designed for credit-impaired and sub-prime borrowers.
                                                                                                                    2
Material Loss Review of Eastern Financial Florida Credit Union
OIG-10-04



the institution without qualified leadership until being placed into conservatorship
by the Florida SSA in April 2009.

NCUA and Florida SSA Supervision of Eastern Financial

Stronger supervisory action earlier in the institution’s aggressive growth strategy and
CDO investment strategy may have influenced EFFCU’s Board and management to limit
the significant level of risk assumed during the institution’s rapid growth period. It may
also have established a more appropriate supervisory tone and prompted the Board and
management to take more timely and adequate action to address examiner concerns,
thereby mitigating, to some extent, the losses incurred by the NCUSIF.

Observations made as a result of our review of EFFCU’s failure include:

   •   We believe examiners should have deemed the planned CDO investment activity
       as a higher risk warranting greater supervisory efforts, especially given that the
       CDOs were not typical investments held by natural person credit unions. Eastern
       Financial was the only FISCU to invest in CDOs. We further believe that the
       Florida SSA could have benefited from seeking additional expertise, possibly
       utilizing outside consultants, to help evaluate the complex securities in which
       EFFCU planned to invest.

   •   Florida SSA and NCUA examiners and officials did not appear to fully understand
       the severity of the risks associated with the purchases of the 18 CDO investments,
       nor does it appear that examiners performed further evaluation of CDO
       investments as would have been required under the NCUA Examiner’s Guide.

   •   Eastern Financial’s management and Board exposed the credit union to excessive
       risks by not placing prudent limits on CDO sectors. Furthermore, the lack of
       reasonable limits on the CDO exposure was found to be the major factor leading to
       the large mark-to-market losses in the investment portfolio and continued write
       downs of the CDOs. Reasonable measures would have included lower limits for
       the CDO sector and further limits on underlying collateral exposure as % of net
       worth.

   •   We believe the NCUA and Florida SSA could have benefited from more active
       dialogue and more detailed workpapers during the supervision of this FISCU due
       to its size and complexity. Of particular focus should be encouraging or requiring
       more communication and analysis of credit union requests to purchase complex
       investments that are not typical of natural person credit unions.

We appreciate the courtesies and cooperation NCUA and Florida SSA management and
staff provided to us during this engagement.


                                                                                        3
Material Loss Review of Eastern Financial Florida Credit Union
OIG-10-04



INTRODUCTION AND BACKGROUND

The National Credit Union Administration (NCUA) Office of Inspector General (OIG)
authorized Crowe Horwath LLP (Crowe) to conduct a Material Loss Review (MLR) for the
Eastern Financial Florida Credit Union (Eastern Financial or EFFCU), as required by
Section 216 of the Federal Credit Union Act (FCU Act), 12 U.S.C. 1790d(j). Eastern
Financial was chartered as a federal credit union in 1937 to serve the employees of
Eastern Airline Transport Company working in or out of Miami, Florida, and their
immediate family members. In November 2001, EFFCU converted to a federally insured
state-chartered credit union (FISCU) serving Eastern Airlines and numerous other select
employee groups. Eastern Financial added several Florida counties to their field of
membership between 2002 and 2006. As of March 21, 2009, EFFCU served
approximately 208,000 members.

Eastern Financial received a composite CAMEL 3 composite rating of 2 4 for annual
examinations and insurance reviews 5 performed by the Florida State Supervisory
Authority (Florida SSA) and NCUA from June 2003 through March 2007. During the
September 30, 2007 annual joint examination and insurance review, the composite
CAMEL was downgraded to a CAMEL 3 6, with a management component rating of 4.
EFFCU’s net worth ratio declined from over 11 percent in 2004 to 9.7 percent as of
September 30, 2007, with examiners citing the decline being caused by high operating
expenses and marginal earnings. The insurance review noted concerns with the CDO
investment portfolio, which was severely distressed and illiquid due to adverse market
conditions. The commercial loan portfolio was also noted as a growing concern with 40
percent of member business loans in construction and development (C&D) loans. The
weakening economy in Florida and the decline in value of real estate securing the C&D
loans were noted as additional threats to EFFCU’s net worth. Delinquency and loan
3
  The acronym CAMEL is derived from the following components: [C]apital Adequacy, [A]sset Quality, [M]anagement,
[E]arnings, and Asset/[L]iability Management. See 61 Federal Register 67021 (12/19/1996) – Federal Financial
Institutions Examination Council-Uniform Financial Institutions Rating System (UFIRS).
4
  Financial institutions in this group are fundamentally sound. For a financial institution to receive this rating, generally
no component rating should be more severe than 3. Only moderate weaknesses are present and are well within the
board of directors' and management's capabilities and willingness to correct. These financial institutions are stable and
are capable of withstanding business fluctuations. These financial institutions are in substantial compliance with laws
and regulations. Overall risk management practices are satisfactory relative to the institution's size, complexity, and
risk profile. There are no material supervisory concerns and, as a result, the supervisory response is informal and
limited.
5
  During an insurance review in a FISCU, NCUA examiners limit their role to the review and analysis of existing or
potential risks to the NCUSIF only, rather than to complete an examination of the FISCU.
6
  Financial institutions in this group exhibit some degree of supervisory concern in one or more of the component
areas. These financial institutions exhibit a combination of weaknesses that may range from moderate to severe;
however, the magnitude of the deficiencies generally will not cause a CAMEL component to be rated more severely
than 4. Management may lack the ability or willingness to effectively address weaknesses within appropriate time
frames. Financial institutions in this group generally are less capable of withstanding business fluctuations and are
more vulnerable to outside influences than those institutions rated a composite 1 or 2. Additionally, these financial
institutions may be in significant noncompliance with laws and regulations. Risk management practices may be less
than satisfactory relative to the institution's size, complexity, and risk profile. These financial institutions require more
than normal supervision, which may include formal or informal enforcement actions. Failure appears unlikely, however,
given the overall strength and financial capacity of these institutions.

                                                                                                                           4
Material Loss Review of Eastern Financial Florida Credit Union
OIG-10-04



losses were increasing and expected to continue rising due to the weakened economy,
coupled with expected uncertainty on further declines in the CDO portfolio. Table 1
(below) provides a timeline of significant events related to EFFCU.

Table 1

                                      Timeline of Significant Events
    September 2005                 EFFCU management and Board approved investments in
                                   CDOs
    March 2007                     EFFCU management and Board approved expansion of CDO
                                   investment strategy to include CDOs backed by HEL ABS
    May 2007 (Effective            NCUA performed ALM and Investment contact, which
    Date - March 2007)             identified significant planned purchases of CDOs
    September 30, 2007             EFFCU CAMEL composite rating downgraded to “3”
    December 2007                  EFFCU was assigned to NCUA Division of Special Actions
    January 25, 2008               Joint Letter of Understanding & Agreement Issued
    February 2008                  EFFCU CEO permitted to resign
    December 18, 2008              Florida SSA Issued Temporary Cease & Desist
    March 19, 2009                 Florida SSA Issued Permanent Cease & Desist
    April 24, 2009                 EFFCU Placed into conservatorship
    June 30, 2009                  NCUA merges EFFCU into Space Coast Credit Union

As a result of the significant findings and numerous outstanding issues related to the
DOR issued during the September 30, 2007 examination and insurance review, a joint
Letter of Understanding and Agreement was signed on January 25, 2008. At the
September 30, 2008 insurance review, EFFCU was further downgraded to a CAMEL
composite 4, 7 with examiners citing EFFCU’s continued declining financial trends
associated with large losses on the CDO investments, deteriorating asset quality, Bank
Secrecy Act and Office of Foreign Assets Control 8 violations, and their inability to hire a
permanent CEO.
7
  CAMEL composite rating “4” under UFIRS - Financial institutions in this group generally exhibit unsafe and unsound
practices or conditions. There are serious financial or managerial deficiencies that result in unsatisfactory
performance. The problems range from severe to critically deficient. The weaknesses and problems are not being
satisfactorily addressed or resolved by the board of directors and management. Financial institutions in this group
generally are not capable of withstanding business fluctuations. There may be significant noncompliance with laws and
regulations. Risk management practices are generally unacceptable relative to the institution's size, complexity, and
risk profile. Close supervisory attention is required, which means, in most cases, formal enforcement action is
necessary to address the problems. Institutions in this group pose a risk to the deposit insurance fund. Failure is a
distinct possibility if the problems and weaknesses are not satisfactorily addressed and resolved.
8
  The Office of Foreign Assets Control (OFAC) is an agency of the United States Department of the Treasury under the
auspices of the Under Secretary of the Treasury for Terrorism and Financial Intelligence. OFAC administers and
enforces economic and trade sanctions based on U.S. foreign policy and national security goals against targeted
foreign states, organizations, and individuals.
                                                                                                                   5
Material Loss Review of Eastern Financial Florida Credit Union
OIG-10-04



On March 19, 2009, the Florida SSA issued a permanent and published Cease and
Desist Order, Board Resolution, and Stipulation due to the expiration of the effective date
of the previously issued temporary Cease and Desist and the existence of many other
issues not addressed in the temporary Cease and Desist. The permanent Cease and
Desist addressed severe deficiencies in board and management oversight, inadequate
maintenance of capital, deterioration of asset quality, inadequate liquidity, and excessive
levels of concentrations in the member business loan portfolio.

On April 24, 2009, the Florida SSA placed EFFCU into conservatorship as they were
determined to be significantly undercapitalized with no reasonable prospect of becoming
adequately capitalized. The Florida SSA immediately appointed NCUA as agent for the
conservator. The Florida SSA cited the following reasons for the conservatorship action:

    •    The credit union does not have sufficient earnings, and has no effective capital
         maintenance plan to halt the rapid depletion of net worth;

    •    The credit union is operating without adequate core deposits to ensure it can meet
         financial obligations as they become due without the mandatory use of borrower
         funds.

    •    The credit union is operating without effective leadership, oversight, executive
         management supervision, and direction from the Board of Directors.

The NCUA merged EFFCU into Space Coast Credit Union effective June 30, 2009. The
estimated loss to the National Credit Union Share Insurance Fund (NCUSIF) was
approximately $40 million.

OBJECTIVES, SCOPE, AND METHODOLOGY

We performed this material loss review to satisfy the requirements of the FCU Act which
requires the NCUA OIG to conduct a material loss review if the loss to the NCUSIF
exceeds $10 million. 9 NCUA notified the OIG of a loss reserve for EFFCU of
approximately $41 million. Consequently, in accordance with the FCU Act and Chapter
3 of the NCUA Special Assistance Manual, NCUA OIG contracted with Crowe to conduct
a material loss review of EFFCU.

Our material loss review objectives were to (1) determine the cause(s) of EFFCU’s failure
and the resulting loss to the NCUSIF, and (2) assess NCUA’s supervision of the credit
union. We conducted this review from November 2009 to April 2010 in accordance with
generally accepted government auditing standards. Those standards require that we
plan and perform the review to obtain sufficient, appropriate evidence to provide a
9
 The FCU Act, 12 U.S.C. § 1790d, §216(j) requires that the OIG conduct a review when the NCUSIF has incurred a
material loss with respect to a credit union. A material loss is defined as (1) exceeding the sum of $10 million and (2) an
amount equal to 10 percent of the total assets of the credit union at the time at which the Board initiated assistance or
was appointed liquidating agent.
                                                                                                                         6
Material Loss Review of Eastern Financial Florida Credit Union
OIG-10-04



reasonable basis for our findings and conclusions based on our review objectives. We
believe that the evidence obtained as described in the Scope and Methodology section,
provides a reasonable basis for our findings and conclusions based on our review
objectives.

The scope of this review included an analysis of EFFCU from June 30, 2004 until it was
placed in conservatorship on April 24, 2009. Our review also included an assessment of
Florida SSA and NCUA regulatory supervision of the institution during the same period.

To achieve the objectives, we performed the following procedures and utilized the
following techniques:

      •   We analyzed NCUA and Florida State Supervisory Authority (SSA) examination
          and supervision contact reports and related correspondence (workpapers
          contained within the AIRES 10 system).

      •   Interviewed management and staff from NCUA Region III and the Florida SSA;
          and reviewed NCUA and SSA guides, policies and procedures, NCUA Call
          Reports, and NCUA Financial Performance Reports (FPRs).

      •   Reviewed EFFCU data and correspondence maintained at the NCUA Region III
          office in Atlanta, GA as provided to Crowe by NCUA.

Crowe relied primarily upon the materials provided by the NCUA OIG and NCUA Region
III officials and examiners, including information and other data collected during
interviews. Crowe did not perform specific review procedures to ensure the information
and data were complete and accurate. Interviews were conducted to gain a better
understanding of decisions made regarding the activities of the credit union management
and the supervisory approach and to clarify information and conclusions contained in
reports of examination and other relevant supervisory correspondence between the
NCUA, Florida SSA and EFFCU. Crowe relied on the information provided in the
interviews without conducting additional specific review procedures to test such
information.




10
     NCUA’s Automated Integrated Regulatory Examination Software.
                                                                                       7
Material Loss Review of Eastern Financial Florida Credit Union
OIG-10-04



RESULTS IN DETAIL

Why Eastern Financial Florida Credit Union Failed

Eastern Financial’s failure can be attributed to inadequate management and Board of
Directors (Board) oversight that exposed the credit union to excessive amounts of risk
due to investments in complex private-placement Collateralized Debt Obligations
(CDOs), weak business loan underwriting and credit administration, poor earnings
resulting from an aggressive growth strategy, and an inadequate strategic plan.

The most significant losses suffered as a consequence to EFFCU’s inadequate
management oversight were related to large investments made in CDOs backed by
subprime home equity/auto loans and corporate debt. Eastern Financial’s management
and Board performed limited analysis prior to approving the investments in CDOs and
ongoing monitoring also appeared weak. Examiners determined that EFFCU
management and Board relied too heavily on the ratings assigned to the CDOs by the
Nationally Recognized Statistical Rating Organization (NRSRO) 11. The credit union also
had rapid growth in Construction and Development (C&D) loans through an EFFCU
majority-owned Credit Union Service Organization (CUSO) in which CUSO and EFFCU
management had limited expertise, as evidenced by significant losses and rapidly
increasing delinquencies.

These factors and others led to increased exposure to high risk investments and loans
secured by subprime assets and commercial real estate property. Eastern Financial’s
concentration of CDO investments and C&D member business loans left the credit union
vulnerable to downturns in national and local economic conditions and the real estate
market. Eastern Financial’s Board and management failed to adequately diversify the
investment and loan portfolios. Moreover, the use of short-term borrowings to fund the
CDOs, as well as an unusually high reliance on overdraft privilege (ODP) fees for
earnings and inefficient operations, compounded the risks of the credit union. Table 2
(below) summarizes selected financial information for EFFCU.




11
  NRSRO is a credit rating agency which issues credit ratings that the U.S. Securities and Exchange Commission
(SEC) permits other financial firms to use for certain regulatory purposes.

                                                                                                                 8
Material Loss Review of Eastern Financial Florida Credit Union
OIG-10-04



Table 2


                                   Key Financial Data and Ratios (000's)

                                                         Dec-05           Dec-06         Dec-07              Dec-08
 Total Assets                                         1,908,465        2,348,141      1,832,050        1,638,660

 Net Worth/Total Assets                                  10.62%            8.97%           8.21%             2.25%

 Impaired Assets/Net Worth                                5.51%            5.43%         10.70%         123.76%

 Return on Average Assets (ROAA) 12
                                                          0.91%            0.38%          (3.3%)         (6.54%)
 (Loss)

 Net Income (Loss)                                        16,309            8,107       (68,907)       (113,463)



CDO Leverage Strategy

Summary

Florida SSA and NCUA examiners determined, and we agree, that EFFCU management
and Board failed to perform adequate due diligence and establish appropriate limits and
controls on investments in CDOs backed by home equity loan (HEL) asset-backed
securities (ABS) and other subprime collateral. Specifically, examiners noted that
EFFCU management and Board:

      •    Relied too heavily on rating agencies’ grading of CDO investments,

      •    Failed to fully evaluate and understand the complexity of the CDO investments,
           and

      •    Created a concentration risk by investing a total of eighteen CDOs for $149 million,
           of which nearly $100 million were backed by HEL ABS.

Eastern Financial failed to fully understand the complexities of the structured finance
CDOs and appeared to rely too heavily on the historical performance of the underlying
collateral, as was determined by the rating agencies. Furthermore, once the
investments began deteriorating in value, EFFCU policy did not incorporate divestiture
based on value declines. Rather, the policy focused on investment grade decreases to
prompt divestiture. This resulted in EFFCU holding the CDOs and taking enormous


12
     The Return on Average Assets ratio is annualized net income divided by average assets for the period.
                                                                                                                      9
Material Loss Review of Eastern Financial Florida Credit Union
OIG-10-04



write downs. By the time the investments were downgraded, there was little or no
opportunity for the credit union to divest the illiquid assets.

CDO Investments

Examiners determined that EFFCU’s investment in CDOs initially began in December
2005. Eastern Financial had requested the Florida SSA approve whether CDOs would
be permissible investments during September 2005. The Florida SSA provided a
response letter, dated September 13, 2005, to EFFCU stating that CDOs collateralized by
loans such as motor vehicle, credit card, home equity or other bank loans were
permissible investments. A copy of the letter was provided to NCUA in September 2005.

In their response letter, the Florida SSA concluded that “since CDOs have characteristics
similar to corporate bonds, which are permitted under Section 657.042(7)(b), it appears
the investment in CDOs would be permissible.” The Florida SSA also stated in the letter
that Section 657.042 (7)(a) requires appropriate policies, as follows:

   •   The Board of Directors must establish comprehensive policies on investments in
       CDOs. The policies should dictate limits on CDOs, limits on the underlying
       collateral in the CDOs, and appropriate documentation to substantiate the legality,
       credit and investment risk;

   •   The CDOs must meet the credit quality ratings specified in Section 657.042(7)(a),
       Florida Statutes;

   •   Credit union must maintain a current credit file for each CDO, containing sufficient
       information to determine whether the investment complies with the credit quality
       section of Section 657.042(7)(b), Florida Statutes. If the investment fails to
       comply with the credit quality requirements, the credit union must divest itself of the
       investment; and

   •   Total investment in CDOs would be limited to the percentage limits of Section
       657.042(3)(b), Florida Statutes.

The Florida SSA’s letter concluded with language that it was approving the legality of the
investment pursuant to governing regulations and did not express opinion of the quality or
acceptability of the investment. The SSA also stated it:

        “neither endorses nor recommends investment in Trust CDOs” and that the
       “credit union must know what it is acquiring, its ramifications, impact on liquidity,
       and the risk associated with this particular investment.”




                                                                                           10
Material Loss Review of Eastern Financial Florida Credit Union
OIG-10-04



The letter also stated that the SSA would:

       “expect due diligence on each CDO to ensure the Board of Directors and
       management thoroughly understand the intended security and that the
       investment’s risk characteristics are consistent with the credit union’s overall
       investment objectives, policies, and business goals.”

We believe the Florida SSA’s letter should have prompted EFFCU’s Board to perform
stronger due diligence on each CDO security purchased. However, EFFCU’s
investment committee did not perform adequate due diligence on the CDO purchases, as
recommended by the SSA’s letter, nor did EFFCU’s CDO investment policy reflect
prudent limits on underlying collateral.

CDO Purchase Activity

In November 2006, the EFFCU Board approved a change to the credit union’s
investment policy to allow investment in private label mortgage backed securities
(MBS). Expanding the acquisition of HEL ABS CDOs was further approved at
EFFCU’s March 3, 2007 Board Investment Committee Meeting. All acquisitions were
to be AA or A rated by the rating agencies, as required by EFFCU’s investment policy.
Purchases in CDOs were at relatively modest levels until early 2007, when EFFCU
dramatically expanded their planned CDO investment strategy. From March 2007 to
June 2007, EFFCU purchased an additional $94.8 million in CDOs. Chart 1 (below)
illustrates EFFCU’s CDO investment growth through June 2007, when new purchases
were suspended.



                        Chart 1: CDO Investment Growth
                                           Thousands
  $160,000
  $140,000
  $120,000
  $100,000
   $80,000
                                                                                Exposure
   $60,000
   $40,000
   $20,000
       $-




                                                                                           11
Material Loss Review of Eastern Financial Florida Credit Union
OIG-10-04



In respect to the CDO strategy, examiners determined that EFFCU management and
Board:

     •   Failed to place reasonable or prudent limits on CDOs or the types of underlying
         collateral;

     •   Had weak investment policy and committee oversight regarding CDOs;

     •   Lacked Board/investment committee expertise;

     •   Allowed large purchases of CDOs over a short period of time, putting net worth at
         risk to a large concentration of CDOs, and

     •   Failed to account for large risks in monitoring investment decisions (like a
         nationwide collapse of housing values).

NCUA examiners reported that EFFCU sold $301 million of fixed-rate CMOs and MBS
during March 2007 at a net gain of $1.7 million. The sales proceeds were used to pay off
short-term borrowings and reduce balance sheet leverage and market risk. From that
point forward, the credit union’s investment/leverage strategy shifted to a focus on
purchasing CDOs funded by short-term borrowings.

Several CDO purchases early in the strategy were backed by corporate bonds.
Examiners considered the corporate bond CDOs were not exposed to sub-prime
residential mortgage loans that experienced much less market value losses than the
2007 CDO purchases backed by HEL ABS. Initial purchases of CDOs backed by HEL
ABS had also initially performed better as the underlying loans were originated in 2005.

During the March – June 2007 timeframe when EFFCU purchased $94.8 million in CDOs,
examiners reported that spreads realized over 3 month LIBOR13 widened considerably.
The examiner noted that A-rated CDO spreads ranged from 325-450 basis points and
AA-rated CDO spreads realized 130-300 basis points. As such, most of these CDOs
deteriorated rapidly in value once purchased. However, we believe that readily available
market data existed that should have prompted EFFCU management and Board to
further evaluate planned CDO purchases during early 2007, or at least to have limited
exposure to types of underlying collateral. In industry circles, it is reasonable to expect
prudent management would have reviewed such readily available market data. Since
CDOs historically paid higher yields than corporate bonds, EFFCU management and the
Board should have understood that higher yields came from taking greater risk
associated with uncertainties and risks associated with the CDOs.



13
  The London Interbank Offered Rate (LIBOR) is a daily reference rate based on the interest rates at which banks
borrow unsecured funds from other banks in the London wholesale money market.
                                                                                                               12
Material Loss Review of Eastern Financial Florida Credit Union
OIG-10-04



Additional CDO purchases were eventually suspended on June 22, 2007, but EFFCU
had already purchased $149.2 million. The August 28, 2007 Internal Investment
Committee Minutes stated that the market began to turn in mid-June when news came
out indicating Bear Stearns’ hedge funds with sub-prime exposure were being seriously
impacted by margin calls. Market conditions for CDOs with sub-prime exposure became
increasingly distressed and illiquid and remained so in 2008 and beyond. The estimated
market values for EFFCU’s CDOs at September 30, 2007 reflected unrealized market
value losses on CDOs of $63.4 million, which amounted to 42 percent of the CDOs’ book
value at that point in time. Even before the crash of the CDO market, it was apparent
that there were real risks and difficulties in valuing CDOs. We believe management and
the Board should have recognized that even though they purchased eighteen different
securities, the CDOs were quite similar and provided little diversification.

Management and Board oversight of CDO Investment Strategy

Based on reviews of EFFCU’s Investment Committee minutes and discussions with
examiners, little evidence exists to indicate that management and the investment
committee performed extensive analysis regarding the decisions to approve CDO
investments for purchase. Furthermore, the Board and management allowed EFFCU to
purchase large amounts of CDOs within a short period of time without prudent limits being
in place. Credit Union management and the Board looked at CDOs as an opportunity to
increase earnings (yields) without fully understanding the dramatic market decreases that
could occur given the riskiness of the underlying collateral of the CDOs which consisted of
home equity lines of credit (HELOCs) and other subprime loan products.

We believe additional readily available market intelligence existed that management
could have used as part of performing proper due diligence and addressing the issues
raised in the Florida SSA letter on CDO permissibility. A CDO Primer published in 2004
by Bond Market Association (now the Securities Industry and Financial Management
Association), described the benefits of investing in CDO’s and their risks. (Note: This
was published before the CDO market collapsed.) The following are risks specifically
cited as associated with CDO’s:

   •   Systemic or modeling risk: Investors should complete a thorough review with
       respect to:

         o the appropriateness of the statistical models employed by the rating agencies
           and;

         o the accuracy and reasonableness of the default and recovery data.

   •   Collateral credit risk: Investors should assess the collateral risk of the pool.



                                                                                          13
Material Loss Review of Eastern Financial Florida Credit Union
OIG-10-04



     •   Structural risk: Investors should perform a breakeven analysis to determine the
         amount of collateral net losses that can occur before a tranche 14 becomes cash
         flow impaired.

Since CDOs represented a unique and new investment decision for EFFCU in 2005, we
believe management and the board should have been able to consider readily available
information such as the Bond Market Primer and other sources as part of the due
diligence process on CDOs.

Eastern Financial invested in private placement CDOs which provided less readily
available market data to perform analysis and provide better understanding of underlying
assets and grading system, tranches, etc. While EFFCU’s CDOs deteriorated rapidly in
late 2007, management and the Board would have benefited from more extensive
research prior to purchasing the CDOs. Such research and due diligence would have
allowed EFFCU management and Board to understand the risk of loss due to subprime
assets that were backing the securities.

In August 2007, EFFCU’s Investment Committee minutes reflected a discussion by a
portfolio manager who provided the Board with an update on issues in the CDO sector
and the impact on their portfolio. The portfolio manager noted the following:

         “…intense analysis of the portfolio has taken place within the last two months.
         The 2006 vintage has not performed to historical norms because in late 2005 loan
         standards declined and individuals who did not qualify were being approved for
         loans, and as a result, hedge funds that were highly leveraged in these securities
         were forced to liquidate…”

The portfolio manager further indicated that the “no liquidity” environment was expected
to last through the end of 2007. He noted an approximate $50 million total (10 percent)
drop in mark–to-market was expected in August 2007, before a bottom-out was expected.

Also during the August 2007 meeting, the investment committee, at the request of the
CFO, reviewed and approved a significant expenditure to purchase Standard and Poor’s
software to provide an additional tool to monitor and evaluate the CDO investments. We
believe these are all steps that the credit union should have taken in the due diligence
process prior to approving investment in the CDOs. Also, we believe that the Florida
SSA and NCUA could have taken steps to ensure EFFCU management possessed the
expertise and tools to evaluate CDOs when EFFCU initially requested whether CDOs
would be permissible investments in 2005.

14
   Tranches are different "classes" of notes within a security that together make up what is referred to as the deal's
capital structure or liability structure. Tranches are generally paid sequentially from the most senior to most
subordinate (and generally unsecured). The more senior rated tranches generally have higher ratings than the lower
rated tranches. For example, senior tranches may be rated AAA, AA or A, while a junior, unsecured tranche may be
rated BB. However, ratings can fluctuate after the debt is issued and even senior tranches could be rated below
investment grade (less than BBB).
                                                                                                                  14
Material Loss Review of Eastern Financial Florida Credit Union
OIG-10-04



Examiners reported that EFFCU relied heavily on a modeling program produced by
Western Corporate Federal Credit Union (WesCorp) in evaluating its asset/liability
management (ALM) and more importantly, its CDO activity. Eastern Financial
Investment Committee minutes noted that an August 31, 2007 WesCorp report
highlighted the continuing “Headline” risk associated with the CDOs. The report stated
that further declines in price were possible, which could contribute to an increase in
interest rate risk. The minutes further stated the WesCorp report:

       “…does not address the underlying credit risk of the CDOs, and that interest rate
       risk would be impacted if their prices were to decline because of “credit” related
       issues…”

We believe this suggests that EFFCU did not perform the required due diligence on CDO
investments when they first expanded their investment policy and planned the
investments, thus they failed to understand the significant credit risk and interest rate risk
that the CDOs posed to EFFCU capital and net worth.

Although addressed by EFFCU’s Investment Policy as required by the Florida SSA,
NCUA examiners determined the CDO sector limits appeared to be imprudent, which
allowed EFFCU to take excessive risk. Furthermore, the lack of reasonable limits on the
CDO exposure was found to be the major factor leading to the large mark-to-market
losses in the investment portfolio and continued write downs of the CDOs. NCUA
examiners suggested, and we agree, that reasonable limits would have included lower
limits for the CDO sector and further limits on underlying collateral exposure.

Eastern Financial’s CDOs first started showing problems in June 2007 ($8 million charge
off) but no formal risk management actions were put in place to evaluate potential further
losses and mitigate continuing exposure. Eastern Financial’s July 21, 2007 Board
minutes reflect a review of CDO investment activity and the portfolio for June 2007. The
minutes of the Investment Committee meeting of June 16, 2007, were accepted as
submitted, with notation that there was a CDO mark-to-market adjustment of $8 million in
June. It was also noted that an analysis of securities was underway to look at the credit
union’s possible exposure. Based on our review of these minutes and discussions held
with examiners, we determined there was no further action taken or exploration by
management or the Board to prevent further exposure to losses in the CDO portfolio.

Examiner Review and Significant Deterioration of CDOs

Examiners determined at the September 30, 2007 examination that management
allowed the CDO investment exposure to represent a significant concentration
compared to net worth over a short period of time. Additionally, examiners determined
that EFFCU had increasing exposure to C&D loans that, once properly classified on
Call Reports, represented over 40 percent of net worth in violation of Section 723.3 of
NCUA Rules and Regulations. Substantial losses on the CDOs and MBLs, coupled

                                                                                           15
Material Loss Review of Eastern Financial Florida Credit Union
OIG-10-04



with extremely high operating expenses and other contributing factors, quickly eroded
the credit union’s net worth in 2007 and 2008 that eventually lead to its insolvency.

In February 2009, the NCUA Regional Capital Markets Specialist (RCMS) reported on
EFFCU’s CDO activity and determined that initial purchases of CDO investments began
in December 2005. The report identified a total of eighteen CDOs purchased through
June 2007, totaling $149.2 million. All CDOs were assigned an AA or A- rating as
required by EFFCU’s investment policy and Florida statute. Sixteen were residential
mortgage backed CDOs, collateralized by HEL ABS. The remaining two CDOs were
backed by corporate bonds.

The RCMS report also confirmed the Florida SSA’s ruling from September 2005, which as
previously noted, had provided a letter of approval for the permissibility of CDOs under
Section 657.042(7)(b) of Florida Statutes.

NCUA examiners determined, and we agreed, that EFFCU did not appear to be in
compliance with the requirement to establish limits on underlying collateral in the CDOs.
The only limits EFFCU included in their investment policy on CDOs was with regards to a
maximum investment between $10 and $20 million per security depending on the
investment grades ranging from A to AAA.

Management Exposed Eastern Financial to Significant Credit Risk

Background on Lending Activity

In 2004 and 2005, the credit union generated significant loan growth (in excess of 20
percent annually) through real estate lending, indirect and direct consumer loans, and
member business lending. Over this same period, the credit union continued to maintain
a high loan to share ratio as loan yields over this period steadily increased though the
credit union’s overall net income did not.

Credit Union Business Capital (CUBC)

During 2005, EFFCU transferred all member business loan underwriting to CUBC a
CUSO, which EFFCU initially wholly-owned. Our review of EFFCU Board minutes and
the regulatory review of the CUSO from 2006 to 2007 indicated that the CUSO struggled
to add new Credit Union members and EFFCU remained the majority owner. NCUA and
Florida SSA examiner’s initial reviews of CUBC suggested strong underwriting, but it
became apparent that underwriting was not as robust given the substantial losses on two
larger MBLs underwritten by CUBC that became severely delinquent and lead to
foreclosures and eventual charge-offs on loans to construction projects where the
properties provided insufficient protection.

Eastern Financial’s June 16, 2007 Board minutes indicated that CUBC continued to be
behind budget and attributed this mostly to staffing issues and delays with loan
                                                                                  16
Material Loss Review of Eastern Financial Florida Credit Union
OIG-10-04



production. NCUA’s Asset Management & Assistance Center and the Florida SSA
performed a review of CUBC as of September 30, 2006. During this review, examiners
found that CUBC estimated it would have 130 credit union clients by September 2007, but
only had 13. The CUBC also had projected it would be profitable by mid-year 2006, but
they continued to revise projections to suggest positive earnings would not be achieved
until sometime beyond 2007. Based on interviews with NCUA examiners, CUBC did not
produce a profit prior to EFFCU being placed into conservatorship.

Examiners determined during the September 30, 2007 examination that part of the
increase in yields was due to an increased loan to share ratio and emphasis of higher risk
loans. Along with loan growth, EFFCU experienced a significant increase in overall loan
delinquencies and loan charge-offs which translated into an increased provision for loan
losses.

Also at September 30, 2007, examiners determined that EFFCU’s commercial loan
portfolio exceeded three of the maximum limitations set by Federal Regulations. Of
more concern was the fact that 40 percent of the commercial loan portfolio (over $90
million) was C&D loans. Examiners cited the weakened real estate market in Florida
which amplified the threat to net worth and increased the credit union’s overall credit risk
exposure.

As the real estate market deteriorated and the economic environment weakened in
Florida, management anticipated continued increases in delinquencies beyond
September 2007. Despite this fact, examiners determined that management was still in
the process of adding to the credit risk by decentralizing the lending function and
increasing unsecured lower grade paper (“C”, “D” and “E”) loans. Eastern Financial had
a large volume of mortgage products with high loan to value (LTV) ratios, which added to
its increased credit risk profile during 2007. As of September 30, 2007, over 34 percent
of the total mortgage loan portfolio represented loans with a LTV ratio exceeding 90
percent. Approximately 8 percent of these were HELOC related loans (line of credit and
credit card) where the credit union did not have a first lien.

Examiners determined that the climate at September 30, 2007 reflected a real estate
market slump that was not expected to recover any time soon. As a result, examiners
recommended management obtain updated valuations of the properties securing loans
issued over 12 months prior where loan to value ratios exceeded 90 percent at the time
the loan was granted; especially if the credit union had a second lien on the property.
Examiners further urged management to perform an analysis to determine the risk
exposure of these loans and set up a specific reserve for this portfolio segmentation, if
warranted.

Regulatory Violations

At the September 30, 2007 examination, examiners discovered that by not classifying
land intended to be developed for income producing property as a C&D loan, EFFCU
                                                                                         17
Material Loss Review of Eastern Financial Florida Credit Union
OIG-10-04



understated total C&D loans resulting in a violation of federal regulations. Therefore,
C&D loans were understated by approximately $61 million. Once properly classified,
C&D loans totaled $91 million and represented 40.66 percent of net worth which exceed
the 15 percent limitation by $57.4 million.

Examiners determined two large MBLs became delinquent in late 2007. Although
EFFCU management worked to foreclose on the properties, the ability of the credit union
to obtain ownership was hindered by the overall volume foreclosures in the state of
Florida and legal complexities with one of the properties. Approximately $51 million of
the MBL balances remained on the delinquency report for the first three Call Report
cycles in 2008.

One of the larger MBLs in delinquent status was not properly classified in EFFCU’s Call
Report resulting in an understated delinquent loan ratio. Specifically, the credit union’s
September 30, 2007 FPR identified the credit union’s delinquent loan ratio at 0.66 percent
when it actually was 2.58 percent. Examiners determined the construction project was
cancelled on the delinquent $30 million MBL. However, EFFCU continued to accrue
interest at November 2007, despite the loan being 5 months delinquent and there being
no more funds in the interest reserve. The NCUA examiner concluded that there was
still sufficient equity in the property to cover principal and interest, but EFFCU was
required to classify the loan as substandard and evaluate if there was a potential loss
under FAS 114 and set-up a reserve if it was determined necessary.

Examiners subsequently reported that this loan went to summary judgment in December
2008 and the loan in the amount of $30 million was transferred to Foreclosed and
Repossessed Assets. The second loan for $19 million was in the process of foreclosure
with summary judgment expected in the second quarter of 2009. Prior to merging
EFFCU into Space Coast credit union, approximately $33 million was charged off for both
loans. There was no information on whether there were any recoveries related to those
charged off loans.

MBL Waiver Limit Requests

Eastern Financial requested the Florida SSA and NCUA for several waivers from NCUA
limits for MBLs set forth in Section 723.3(b) of NCUA Rules and Regulations, which
require a borrower to have a minimum of 25 percent equity interest in the project being
financed. One request was for a C&D loan where the borrower’s equity interest in the
project was as low as 5 percent. Through our review of examiner workpapers (contained
in AIRES) as well as discussions with examiners, we determined that NCUA examiners
recommended that NCUA regional office deny the EFFCU MBL waiver requests. The
examiner stated that approving this or other loan waivers that significantly depart from the
requirements of the MBL regulations could establish an unsafe and unsound precedent.
Nonetheless, several of the waivers were granted by NCUA and Florida SSA, allowing
EFFCU to make MBLs to borrowers with less than the regulatory mandated 25 percent
equity in the project.
                                                                                         18
Material Loss Review of Eastern Financial Florida Credit Union
OIG-10-04



A review of the March 30, 2007 EFFCU Board minutes also reflected a discussion by
management and the Board to request approval from the Florida SSA to increase their
business lending ceiling cap to 20 percent of total assets. We believe these types of
waiver requests exemplify management and the Board’s willingness to circumvent
regulatory limits in order to expand business lending activity, at the expense of putting the
credit union’s financial stability and sound net worth position at risk.

Centrix Participation Program

Examiners reported that EFFCU management and the Board approved the participation
up to 5 percent of assets or $70 million in a Centrix Financial, LLP loan participation
program where Centrix acted as marketer, underwriter, and servicer for an indirect
automobile loan program designed for credit-impaired and sub-prime borrowers. Florida
SSA reviewed the program at the June 30, 2004 report. Loans under the Centrix
program totaled $29.8 million by August 2004. Examiners noted that the Centrix Sub
Prime Auto Loan Program was a high-risk program that required an increased level of
monitoring by management and that borrowers were marginal, loan terms did not
correspond with the age of collateral (e.g. 66 month loan for a 3 year old car) and interest
rates were high. Examiners determined such loans would require constant monitoring
and verification of the reports and information provided by Centrix.

Eastern Financial August 2007 Board minutes indicated the CFO made the Board aware
of $3 million in charge offs expected in 2007 on the Centrix portfolio. The September 20,
2007 examiner informal discussion items included comments on the bankruptcy of
Centrix, LLC in October 2006 that caused charge offs to more than double from
September 2006 to September 2007, close to $2 million in that time period.

Forgery and Loss on Member Business Loan

During the September 30, 2007 examination, examiners noted a past due $22 million
balloon loan that matured in October 2007. Examiners noted the borrowers were in the
process of refinancing this loan through another credit union. As of the exam, the
borrowers were attempting to obtain a three-month extension from EFFCU. However,
the following required documents had not been received to complete the extension:

   •   Three month extension agreement (received November 15, 2007),

   •   Executed contract (joint venture between borrower and new investor),

   •   Commitment Letter from the take-out institution. Only a Letter of Interest was
       received,

   •   $30,000 extension fee, and

   •   $510,000 interest reserve to be deposited at the credit union.
                                                                                          19
Material Loss Review of Eastern Financial Florida Credit Union
OIG-10-04



On February 12, 2008, EFFCU was made aware of an alleged forgery in their $22 million
loan for South Florida Properties. The loan was for the refinance of an existing mortgage
held by Florida Community Bank, and to provide funds for closing costs and interest
reserve. In legal documents presented to EFFCU, the managing member of South
Florida Properties stated that all signatures on the loan were forged. He was seeking to
rescind on the personal guaranty and mortgage. Some of the documents were notarized
in Florida despite proof the borrower was at home in Connecticut.

Additional Issues Providing Evidence of Poor Management and Board Oversight

Outside of the large losses associated with CDOs and MBL activity, there were additional
factors that raised EFFCU’s risk profile that further demonstrate the lack of effective
management and Board oversight:

   •   Costly Branch Expansions - Examiners noted EFFCU’s rapid branch expansion
       strategy dated back to 2004 with continuous branch expansions costing EFFCU
       significantly more than originally budgeted. For example, the very costly opening
       of EFFCU’s Sunrise branch and other planned expansions continued even as the
       credit union’s financial condition deteriorated. The June 16, 2007 Board minutes
       focused on the credit union’s need to control expenses, while the Board approved
       additional overruns on the Sunrise branch. Ultimately, the Sunrise branch
       opening cost EFFCU approximately $3.4 million, which represented $1 million to
       $1.5 million more than initially budgeted.

   •   Reliance on Overdraft Privilege Fees - Examiners indicated that as EFFCU’s
       operating expenses were increasing significantly as early as 2001, EFFCU
       decided to offer overdraft privilege (ODP) as a member service and a profit center
       at the end of the first quarter in 2002. The resulting increase of fee income
       enabled management to increase operating expenses to such a high level that by
       2007, EFFCU became significantly dependent on ODP as a source of income,
       which produced a positive return on average assets. As of September 30, 2007,
       ODP fee income represented an annualized 1.43 percent of average assets
       compared with the total return on average assets of 0.26 percent. ODP income
       accounted for roughly $20.2 million, or 65 percent of total fee income at September
       30, 2007.

   •   Lack of Management Succession Plan - A review of the March 30, 2007 Board
       minutes includes a discussion on a Succession Plan presentation that disclosed
       ten out of 36 key positions within EFFFCU did not have a named successor.
       There was no evidence of further discussion at the board level or what corrective
       actions were taken. This is of particular importance because EFFCU became
       subject to regulatory actions in late 2007 as the financial condition deteriorated,
       the CEO resigned after the Board signed an LUA in February 2008. However,
       EFFCU management and the Board were unable to fill the vacant CEO position.
       The position was offered to three individuals during 2008; however, all three
                                                                                          20
Material Loss Review of Eastern Financial Florida Credit Union
OIG-10-04



       declined to take the position. The CEO position was never filled until EFFCU was
       placed into conservatorship, at which point EFFCU was being managed by
       officials from Space Coast Credit Union.

   •   Service Contracts - Through the review of the due diligence process as part of
       the planned acquisition of EFFCU, NCUA officials determined Space Coast Credit
       Union had discovered that EFFCU had over 400 contracts in place with outside
       service providers. Further review of Space Coast and NCUA documentation on
       the planned acquisition determined that three of the largest contracts in place
       would cost roughly $8.5 million to terminate, since EFFCU had signed 5-year
       agreements with all of these providers.




                                                                                    21
Material Loss Review of Eastern Financial Florida Credit Union
OIG-10-04



Florida State Supervisory Authority and NCUA Supervision of Eastern Financial
Florida Credit Union

Supervisory Background

Florida SSA and NCUA examiners had few criticisms of EFFCU operations or its
management in examination reports leading up to September 30, 2007. Prior to
September 2007, EFFCU consistently received composite CAMEL ratings of 1 or 2, with
examiners generally citing a traditional business plan (prior to 2005) and EFFCU
maintaining a consistently strong net worth position.

Eastern Financial’s earnings component rating dropped to a 3 during the June 30, 2006
examination, the remaining components were rated 1 or 2, with a composite of 2.
Examiners concluded that the ROAA of 0.53 percent could have initiated Administrative
Action in the form of a DOR which would have outlined a course for corrective action.
However, Florida SSA decided against issuing a DOR as examiners felt it would not
substantially add anything to management’s ongoing efforts. Examiners determined
that management was being proactive and that earnings would improve as “strategies
change, services expand, and lending products are enhanced.”

Eastern Financial’s component and composite ratings were substantially downgraded as
a result of the September 30, 2007 examination, based largely on the losses associated
with the substantial write-downs being required in the CDO investments. Eastern
Financial’s composite rating was downgraded to a 3. The financial condition continued
to deteriorate in 2008 and the credit union was downgraded further to a CAMEL
composite 4 following the September 30, 2008 insurance review. With the seriously
distressed CDO portfolio, concerns with the member business loan portfolio, and impact
of the overall economic issues on the state of Florida, the Florida SSA issued a temporary
Cease and Desist in December 2008 and a permanent Cease and Desist on March 19,
2009. The asset and liability account records of EFFCU as of March 31, 2009 showed
assets of approximately $1.62 billion and liabilities of approximately $100 million. Since
EFFCU’s shares of $1.53 billion exceeded the cash value of assets less liabilities, the
credit union was found to be insolvent with a Problem Asset / Share ratio of 99.77 percent.
The Florida SSA placed EFFCU into conservatorship and appointed the NCUA
conservator on April 24, 2009. Table 3 (below) provides an overview of significant
contacts by the Florida SSA and NCUA Region III.




                                                                                        22
Material Loss Review of Eastern Financial Florida Credit Union
OIG-10-04



Table 3

 Exam Report Date            Exam / Insurance           Performed by                     C-A-M-E-L /
                             Review Type                                                 Composite

         6/30/04             Annual                     SSA lead / joint                 1-2-2-3-2 / 2
         6/30/05             Annual                     NCUA lead / joint                1-2-1-2-2 / 2
         6/30/06             Annual                     SSA lead / joint                 1-2-2-3-2 / 2
        9/30/07*             Annual                     NCUA lead / joint                3-3-4-3-3 / 3
         9/30/08             Annual                     Joint (Special Actions)          4-4-4-5-3 / 4
         4/24/09             On-site Contact            NCUA                             5-5-5-5-4 / 5

 * NCUA placed Eastern Financial into Special Actions after the September 2007 annual exam.

Supervisory Efforts to Key Risks Were Not Adequate or Timely

We determined NCUA and Florida SSA examiners could have identified key risk areas
such as planned purchases of substantial amounts of CDO investments in early 2007 and
the extension of larger member business construction loans in 2006. Under the
risk-focused examination approach, NCUA guidance:

    •   Encourages examiners to focus on activities of increased or higher risk and to
        determine that credit unions are completing proper due diligence reviews prior to
        engaging in new or expanded activities; and

    •   Indicates examiners should ensure that credit unions continue to monitor higher
        risk activities on an on-going basis.

As earnings began to deteriorate, the credit union initiated a leverage strategy where they
requested approval from the Florida SSA on whether CDOs would be a permissible
investment. As discussed in the previous section of this report, the Florida SSA
responded to credit union management in September 2005 and again in 2007 that
investments in CDOs “appeared to be permissible” under Florida statutes. We believe
the September 2005 CDO letter should have prompted the Florida SSA to require that
EFFCU implement strong CDO policies to include prudent limits on initial CDO purchases
to ensure EFFCU could properly manage the complex investments, before permitting
EFFCU to purchase larger volumes of CDOs. We found no evidence that the Florida
SSA adequately evaluated compliance of EFFCU’s CDO policies or initial CDO
purchases with the provisions in the SSA letter. It was not until the September 2007
examination that the Florida SSA and NCUA cited EFFCU’s CDO investment policy for
not reflecting prudent limits on underlying collateral, which was one of the provisions in
the Florida SSA’s 2005 letter.

                                                                                                         23
Material Loss Review of Eastern Financial Florida Credit Union
OIG-10-04



As part of their leverage strategy to improve yields and produce income, EFFCU
eventually purchased approximately $150 million of CDOs between December 2005 and
June 2007.

We believe examiners should have deemed the planned CDO investment activity as a
higher risk activity warranting greater supervisory efforts, especially given that the CDOs
were not typical investments held by natural person credit unions. Based on information
reviewed during our review and discussions with examiners and NCUA officials, EFFCU
was the only FISCU to invest in CDOs. We further believe that the Florida SSA, once
made aware that EFFCU planned to invest in CDOs in 2005, could have benefited from
seeking additional expertise, possibly utilizing outside consultants, to help evaluate the
complex securities in which EFFCU planned to invest.

Purchases in CDOs were at relatively modest levels until early 2007, when EFFCU
dramatically expanded their planned CDO investment strategy. Expanding the
acquisition of HEL ABS CDOs was approved at the credit union’s March 3, 2007 Board
investment committee meeting. From March 2007 to June 2007, EFFCU purchased an
additional $94.8 million in CDOs.

We believe that NCUA and Florida SSA examiners missed another opportunity in 2006 or
early 2007 to perform further review of EFFCU’s initial approval to invest in CDOs and
additional expansion of the program in 2007. We also believe NCUA and SSA
examiners would have benefited from performing further analysis on the unusual and
very complex investment activity for natural person credit unions that were beyond the
expertise of EFFCU management.

The NCUA Examiner’s Guide provides that if the examiner’s analysis determines the
credit union has a significant position in high-risk securities (e.g., CMOs, Real Estate
Mortgage Investment Conduits, or other complex securities that have excessive risk) or
inconsistencies with its investment, liquidity, or asset-liability policies, the examiner may
review management’s analysis and determine whether the credit union can manage the
risk of holding the high-risk CMOs or complex securities. We found no evidence that
NCUA or Florida SSA examiners evaluated whether EFFCU could manage the risk of
holding the high-risk CDOs.

The Examiner’s Guide further indicates that some of the factors examiners should
consider in evaluating whether a credit union may safely hold high-risk investments
include:

   •   The ability of the officials to explain the instrument’s characteristics and risks to the
       examiner;

   •   The ability of the officials to obtain and adequately evaluate the instrument’s
       market pricing, cash flows, and test modeling;

                                                                                             24
Material Loss Review of Eastern Financial Florida Credit Union
OIG-10-04



   •   The ability of the officials to define, explain and document how the high-risk
       investments fit into the credit union’s ALM strategy; and

   •   The effect that either holding or selling the high-risk bonds will have on earnings,
       liquidity, and net worth in different interest rate environments.

We again found no evidence that examiners considered the above factors in evaluating
whether EFFCU possessed the ability to safely hold the high-risk CDO investments. In
particular, we found no evidence where the examiners considered the ability of EFFCU
officials to explain the instruments’ characteristics and risks.

Lastly, the Examiner’s Guide indicates that after obtaining the concurrence of the
supervisory examiner and regional office, examiners may seek divestiture if they believe
continued ownership of high-risk securities represents an undue risk to the credit union.
This risk can arise from the following:

   •   The size of a credit union’s holdings of high-risk securities in relation to its capital
       and earnings;

   •   Management’s inability to demonstrate an understanding of the nature of the risks
       inherent in the securities;

   •   The absence of internal monitoring systems and other internal controls to
       appropriately measure the market and interest rate risk (IRR) of these securities;
       or Management’s inability to manage its overall IRR.

We believe had the NCUA and Florida SSA examiners performed further evaluation of
EFFCU management and Board’s lack of understanding of the risks and characteristics
of the CDO investments earlier in the process, they could have concluded that EFFCU’s
ownership of the high-risk securities represented an undue risk to the credit union, and
could have required EFFCU to place more prudent limits on CDO holdings, or otherwise
required earlier divestiture.

For example, the NCUA could have required that EFFCU commit to a written plan and
timeline for addressing key risks identified by examiners prior to September 2007 and
monitored EFFCU’s performance relative to the plan. Among other things, the plan
could have required EFFCU to:

   •   Establish prudent risk management practices for CDO investment activities prior to
       the initial CDO purchases;

   •   Establish reasonable growth projections and parameters for ensuring that member
       business loans and C&D loan growth was appropriately constrained;


                                                                                            25
Material Loss Review of Eastern Financial Florida Credit Union
OIG-10-04



   •   Mitigate the C&D and subprime credit concentration risk in its investment and loan
       portfolios; and

   •   Reduce its dependence on ODP Fees as a primary source of income.

Florida SSA and NCUA Supervision of Eastern Financial’s CDO Investment Strategy

The following are highlights of events and actions surrounding the SSA and NCUA
supervision of EFFCU’s overall CDO Investment strategy.

The NCUA RCMS participated in the September 30, 2005 annual examination with the
Florida SSA to review Liquidity and ALM. At September 30, 2005, EFFCU had not yet
purchased any CDOs, nor was there any mention in the examination report with regards
to EFFCU’s request from the Florida SSA on whether CDOs would be permissible
investments. Recommendations were made for EFFCU to:

   1. Expand liquidity policies for the following areas:

           •   Primary liquidity sources/monitoring procedures,

           •   Alternative liquidity sources,

           •   Liquidity procedures under normal business conditions,

           •   Liquidity procedures under emergency or stressed conditions.

   2. Develop policy limits on leveraging to address the following:

           •   Adequate capital maintenance for the balance sheet leverage and risk,

           •   The extent of mismatch risk allowed in the leveraged strategies,

           •   Adequate availability of credit lines and other alternative liquidity sources
               for potential emergency or stressed conditions.

The NCUA RCMS did not participate in the September 30, 2006 annual examination of
EFFCU. However, during this examination a Florida SSA examiner reviewed liquidity
and ALM and noted in the preliminary risk assessment that EFFCU had “sophisticated
investments.” The September 30, 2006 exam scope identified that EFFCU received
approval from Florida SSA to invest in CDOs effective September 13, 2005. This report
also noted that the credit union was growing quickly and that capital was on a declining
trend. Examiners further recognized the level of complexity and sophistication in the
credit union. Examiners commented that while management was strong in the area of
research and setting controls before program implementation, management was often

                                                                                           26
Material Loss Review of Eastern Financial Florida Credit Union
OIG-10-04



too aggressive and overlooked the need to ensure regulatory compliance. Examiners
concluded that although the credit union was operating soundly at September 30, 2006, it
would be necessary for supervisory review of the monthly financial condition, new credit
union services and programs and overall performance to continue in order to properly
monitor the constant ongoing changes at this credit union.

The RCMS conducted an ALM Investment contact for the March 30, 2007 financial date.
The examiner cited the credit union’s current investment strategy involving purchasing
HEL ABS and CDOs funded with short-term borrowings. The examiner determined that
$45 million of CDOs were purchased during March and April 2007. The examiner further
determined that the total acquisitions approved under this strategy would raise the
investments in ABS and CDOs close to the Florida Statute limit of $168 million, which was
based on 10 percent of EFFCU’s shares and retained earnings at March 31, 2007. In
addition, correspondence sent from the RCMS to the NCUA Examiner in Charge and
Supervising Examiner for EFFCU indicated:

      •    The $99 million CDO portfolio consisted of private placement CDOs under SEC
           Rule 144A. The examiner further reported that the CDOs were not registered with
           the SEC so they were only available to qualified institutional buyers. 15

      •    Eastern Financial was the only natural person credit union to invest in CDOs.

      •    The RCMS requested assistance from NCUA’s Office of Capital Markets and
           Planning (OCMP) on the upcoming September 30, 2007 examination of EFFCU to
           review the CDOs and the CDO investment strategy.

During the September 30, 2007 examination, EFFCU’s CDOs had unrealized market
value losses of $63.4 million, or 42 percent of the CDOs’ book value. As a result of this
September 2007 exam, the NCUA and Florida SSA issued a DOR and eventually a joint
LUA to instruct management and the Board to perform a risk assessment on the entire
loan and investment portfolio to determine the current risk exposure to the credit union’s
net worth. The DOR included numerous provisions for EFFCU to better manage
operating expenses, cease further CDO purchases, and develop, adopt, and implement
maximum risk levels to be maintained. We believe that if some of the corrective actions
were brought to EFFCU management’s attention before September 2007, EFFCU
management could have been better informed about the risk of the underlying collateral
and potential losses that could be recognized by the CDOs.

Based on the NCUA and Florida SSA observations at each examination, in retrospect, a
stronger supervisory response at earlier examinations may have been prudent in light of
the nature and extent of the risks and the institution’s lack of adequate or timely corrective
action. Earlier and stronger supervisory action may have influenced EFFCU’s Board
and management to limit the significant level of risk assumed during the institution’s rapid

15
     Bloomberg and other financial data services would have limited information available on private-label CDOs.
                                                                                                                   27
Material Loss Review of Eastern Financial Florida Credit Union
OIG-10-04



growth period, especially in their CDO leverage strategy and MBL activities, where they
suffered the largest losses that caused the failure.

During the September 2007 examination, NCUA and the Florida SSA examiners issued a
DOR to EFFCU management directing them to establish comprehensive policies on: (1)
reasonable limits on CDOs, and (2) limits on underlying collateral in the CDOs (or
appropriate documentation to substantiate the legality, credit, and investment risks of
CDOs). Unfortunately, by September 30, 2007, EFFCU had already purchased close to
$150 million in CDOs that were rapidly deteriorating in value with limited opportunities for
divestiture. As the CDO losses were recorded to earnings in 2007 through 2009, this
significantly impacted EFFCU’s net worth. Chart 2 (below) illustrates EFFCU’s Net
Worth ratio from June 2007 through December 2008.



                              Chart 2: Net Worth Ratio
   12.00%
                10.53%
   10.00%
                                 8.21%       7.96%
    8.00%                                                7.48%

    6.00%                                                          6.35%
                                                                                           Net Worth
    4.00%
                                                                           2.76%
    2.00%
                                                                                   2.56%
    0.00%
            Jun-07   Sep-07   Dec-07     Mar-08      Jun-08   Sep-08   Dec-08




                                                                                                  28
Material Loss Review of Eastern Financial Florida Credit Union
OIG-10-04



FINDINGS AND SUGGESTIONS

This section summarizes key report findings and suggestions for NCUA management to
consider in addressing issues leading to the failure of the credit union as well as with
NCUA and Florida SSA supervision of the credit union.

 I. Finding:

   Eastern Financial’s management and Board exposed the credit union to excessive
   risks by not placing prudent limits on CDO sectors. Furthermore, the lack of
   reasonable limits on the CDO exposure was found to be the major factor leading to the
   large mark-to-market losses in the investment portfolio and continued write downs of
   the CDOs. Reasonable measures would have included lower limits for the CDO
   sector and further limits on underlying collateral exposure as percent of net worth.

   Suggestion

   When a credit union requests approval to purchase investments in complex securities
   not typically seen by the examiners, NCUA could instruct examiners to perform
   additional analysis to ensure credit union management and Board understand the
   nature of the securities and the related risks. NCUA should require the credit union
   to:
          • Establish prudent risk management practices for CDO investment activities
              prior to the initial CDO purchases;

           •   Establish reasonable growth projections and parameters for ensuring that
               member business loans and C&D loan growth was appropriately
               constrained; and

           •   Mitigate the C&D and subprime credit concentration risk in its investment
               and loan portfolios;

II. Finding

   We believe had the NCUA and Florida SSA examiners performed further evaluation of
   EFFCU management and Board’s lack of understanding of the risks and
   characteristics of the CDO investments earlier in the process, they could have
   concluded that EFFCU’s ownership of the high-risk securities represented an undue
   risk to the credit union, and could have required EFFCU to place more prudent limits
   on CDO holdings, or otherwise required earlier divestiture.




                                                                                       29
Material Loss Review of Eastern Financial Florida Credit Union
OIG-10-04



   Suggestion

   We believe NCUA should consider evaluating the guidance provided to examiners
   when encountering CDOs to possibly include better defined limits on CDO sectors
   and underlying collateral as a percent of Net worth, and consider requiring further
   evaluation of CDO sector and collateral exposure during examinations to better
   understand risk to NCUSIF. We do not believe NCUA should rely solely on State
   Statutes to determine limits on investments in complex securities such as CDOs.

   In addition, when highly complex investments are considered by credit union
   management, we believe the Region should request the assistance from the NCUA
   Chief Accountant and/or the Office of Capital Markets and Planning (OCMP) early in
   the process to obtain a broader understanding of the features and specific risks of the
   securities. NCUA officials at the national level would be better positioned to obtain
   outside expertise as warranted – especially when the securities are highly complex
   and not typical credit union investments. It is difficult for a regional expert to obtain
   the level of knowledge required to fully understand the features and risks of all types of
   securities products developed, and this may be better managed at a national level.

III. Finding

   Eastern Financial’s Board supported a high cost, aggressive growth strategy that
   ultimately drove down core earnings and encouraged management to search for
   higher returns in higher risk investments. Eastern Financial’s management routinely
   exceeded the projected costs for opening new branch locations without any resulting
   actions by the Board being taken regarding the growth strategy. Eastern Financial’s
   Board failed to understand and manage the level of risk undertaken by management
   in both its acceptance of the strategy to invest in higher risk CDO investments as well
   as the higher risk C&D Member Business lending.

   Suggestion

   NCUA should consider more careful analysis of Boards at larger, more complex credit
   unions, and encourage Board members to more carefully evaluate credit union
   expertise with new and expanded products or activities during an aggressive growth
   period.

IV. Finding

   Examiners recognized the level of complexity and sophistication in the credit union
   before significant problems surfaced and commented that while management was
   strong in the area of research and setting controls, management was often too
   aggressive and overlooked the need to ensure regulatory compliance. The credit
   union also had a history of requesting waivers from regulatory limits while violating
   others.
                                                                                          30
Material Loss Review of Eastern Financial Florida Credit Union
OIG-10-04



   Suggestion

   NCUA should consider encouraging examiners and Regional offices to perform
   further analysis of instances where a credit union has recurring regulatory violations or
   otherwise demonstrates a desire to circumvent regulatory limits or fails to respect
   regulatory compliance.




                                                                                         31
Material Loss Review of Eastern Financial Florida Credit Union
OIG-10-04



Appendix A - NCUA Management Comments




                                                                 32
Material Loss Review of Eastern Financial Florida Credit Union
OIG-10-04




                                                                 33
Material Loss Review of Eastern Financial Florida Credit Union
OIG-10-04



APPENDIX B - Acronyms


 Acronym                               Definition
 ABS                                   Asset-Backed Security
 AIRES                                 Automated Integrated Regulatory Examination
                                       Software
 C&D                                   Construction and Development
 CDO                                   Collateralized Debt Obligation
 Eastern Financial or EFFCU            Eastern Financial Florida Credit Union
 FISCU                                 Federally Insured State-Chartered Credit Union
 Florida SSA                           Florida State Supervisory Authority
 FPR                                   Financial Performance Reports
 HEL                                   Home Equity Loan
 MLR                                   Material Loss Review
 NCUA                                  National Credit Union Administration
 NCUSIF                                National Credit Union Share Insurance Fund
 ODP                                   Overdraft Privilege
 OIG                                   Office of Inspector General
 ROAA                                  Return on Average Assets




                                                                                        34
